Ko-XSC.10-9 **/
December Term, 2020
IN THE
SUPREME COURT OF THE UNITED STATES

JIMMY LEE TOLIVER, Petitioner
V.
STATE OF FLORIDA, Respondent

EXHIBITS TO
PETITION FOR A WRIT OF CERTIORARI
Jimmy Lee Toliver for himself and on behalf of all
similarly situated Florida defendants

Jimmy Lee Toliver DC#J09505
Union Correctional Institution
P.O.Box 1000
Raiford, Florida 32083
Petitioner pro se

EXHIBIT

Supreme Court of Jflortba
MONDAY, OCTOBER 26, 2020
CASE NO.: SC20-841
Lower Tribunal No(s).:
1D19-3842; 162004CF011669AXXXMA
JAMES L. TOLLIVER
Petitioner(s)

vs.

STATE OF FLORIDA
Respondent(s)

This cause having heretofore been submitted to the Court on jurisdictional
briefs and portions of the record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the Court having determined that
it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing will be entertained by the Court. See Fla. R. App.
P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, MUNIZ, and COURIEL, JJ., concur.
A True Copy
Test:

<22
Joliii A. Tomasino
Clerk, Supreme Court
dl
Served:
STEVEN E. WOODS
JAMES L. TOLLIVER
HON. RONNIE FUSSELL, CLERK
HON. MARK J. BORELLO, JUDGE
HON. KRISTINA SAMUELS, CLERK

&m£m
^Vr2'

EXHIBIT

First District Court of Appeal
State of Florida
No. 1D19-3842
Jimmy Lee Toliver,
Petitioner,
v.
State of Florida,
Respondent.

Petition for Writ of Habeas Corpus—Original Jurisdiction.
April 7, 2020
B.L. Thomas, J.
Petitioner seeks a new trial and alleges ineffective assistance
of appellate counsel and manifest injustice. He argues that he is
entitled to relief because his appellate counsel failed to preserve
the issue of an erroneous lesser-included offense jury instruction
on manslaughter by placing his case in the pipeline of Montgomery
v. State, 70 So. 3d 603 (Fla. 1st DCA 2009), approved, 39 So. 3d 252
(Fla. 2010). We disagree. We treat the petition as a petition for
writ of habeas corpus. Petitioner having failed to demonstrate
manifest injustice, the petition is dismissed as procedurally
barred. See Baker v. State, 878 So. 2d 1236 (Fla. 2004).
Petitioner’s conviction became final in 2007 after his direct
appeal was affirmed in Toliver v. State, 953 So. 2d 713 (Fla. 1st

DCA 2007,), rev. denied, 966 So. 2d 971 (Fla. 2007), and thus before
the issuance of this Court’s opinion in Montgomery v. State, 70 So.
3d 603 (Fla. 1st DCA 2009). The holding in Montgomery does not
apply retroactively to convictions that were final before the opinion
issued. Rozzelle v. State, 29 So. 3d 1141, 1142 (Fla. 1st DCA 2009).
Petitioner’s postconviction proceeding that was pending in 2009
could not operate to place him in the Montgomery pipeline. See
Castano v. State, 119 So. 3d 1208, 1210-11 (Fla. 2012) (Pariente,
J., concurring) (explaining that a pending postconviction
proceeding can only operate to place the defendant in the pipeline
of a case making new law if the new law would apply to claims
appropriately raised in a postconviction proceeding rather than in
direct appeal).
Additionally, Petitioner cannot demonstrate manifest
injustice because the Florida Supreme Court’s recent opinion in
Knight v. State, 2019 WL 6904690 (Fla. 2019), receded from State
v. Montgomery, 39 So. 3d 252 (Fla. 2010).
We write also to address Petitioner’s filing history. Apart
from the instant case, Petitioner has filed five other pro se actions
in this Court attacking his judgment and sentence: 1D09-0739,
1D09-5656, 1D13-1188, 1D13-2185, and 1D18-5108. These actions
include postconviction appeals, petitions for writ of habeas corpus,
and a petition alleging ineffective assistance of appellate counsel.
Petitioner has failed to obtain relief in these actions. Petitioner is
warned that any future filings that this Court determines to be
frivolous, may result in the imposition of sanctions, including a
prohibition against any further pro se filings in this Court and a
referral to the appropriate institution for disciplinary procedures
as provided in section 944.279, Florida Statutes (2019) (providing
that a prisoner who is found by a court to have brought a frivolous
or malicious suit, action, claim, proceeding, or appeal is subject to
disciplinary procedures pursuant to the rules of the Department of
Corrections).
Wolf and Roberts, JJ., concur.

2

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

Jimmy Lee Toliver, pro se, Petitioner.
Ashley Moody, Attorney General, Tallahassee, for Respondent.

3

